>
I

C@OCKLE

E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1189
B.P. PLC et al.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURITAE ENERGY POLICY ADVOCATES IN SUPPORT OF THE PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7717 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 23rd day of November, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

freemen] Aerse: Q.tlaos? Qndaneh hele

My Comm. Exp. September 5, 2023 -
Notary Public Affiant 40291

 
